No. 19-323
IN THE

855reme Kw/ ofd ihifear8.fa.fee
CHARLES V. SCHNEIDER,

Petitioner
v.
COMMISSIONER OF INTERNAL REVENUE,

Respondent
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Eighth Circuit
PETITION FOR REHEARING

CERTIFICATE OF COMPLANCE
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Petition for Writ of Certiorari, by Charles V. Schneider, was prepared using
Microsoft Word 2013, in 12-point Century Schoolbook font, and that it contains
1,030 words excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d), as determined by the Microsoft Word 2013 wordcounting system.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 08, 2019.

Charles V. Schneider

